            U.S. Department of Agriculture
             Office of Inspector General
                  Southwest Region
                     Audit Report




                    Farm Service Agency
            Review of 1999 Crop Disaster Program




                            Report No.
                            03601-38-Te
JULY 2001                   July 2001
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                    Southwest Region - Audit
                                 101 South Main Street, Suite 324
                                      Temple, Texas 76501
                              TEL: 254-743-6565 FAX: 254-298-1373




DATE:        July 13, 2001

REPLY TO
ATTN OF:     03601-38-Te

SUBJECT:     Review of 1999 Crop Disaster Program

TO:          John T. Fuston
             State Executive Director
             Farm Service Agency

ATTN:        Ted Peabody, Jr.
             Chief Program Specialist
             Commodities and Compliance Division
             Farm Service Agency


This report presents the results of our review of the Farm Service Agency’s (FSA)
administration of the 1999 Crop Disaster Program (CDP) in Texas. The FSA’s
response to the draft report, dated June 4, 2001, is included as exhibit C with excerpts
of the response and the Office of Inspector General’s position incorporated into the
relevant sections of the report.

We agree with your planned action for Recommendation No. 1, but will need additional
documentation to reach management decision.

We are not in agreement with your conclusions on Finding No. 2 that contained
Recommendations Nos. 2 and 3. However, your response did prompt us to reconsider
these recommendations as presented in the draft report. As a result, we deleted
Recommendation No. 3, and revised Recommendation No. 2. Thus, additional
information will be needed to reach a management decision on Recommendation No.
2. The information needed to reach management decision on Recommendations Nos.
1 and 2 is set forth in the appropriate sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned and the timeframes for
implementation of each audit recommendation. Please note that the regulation requires
management decisions to be reached on all findings and recommendations within a
maximum of 6 months from report issuance and final actions to be taken within 1 year of
the management decisions.
John T. Fuston                                                                    2


We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.



/s/ R. E. Gray
ROBERT E. GRAY
Regional Inspector General
    for Audit
                       EXECUTIVE SUMMARY
                         FARM SERVICE AGENCY
                 REVIEW OF 1999 CROP DISASTER PROGRAM

                           REPORT NO. 03601-38-Te


                                      We performed an audit of the 1999 Crop
      RESULTS IN BRIEF                Disaster Program (CDP). The audit was
                                      initiated based on conditions noted during a
                                      review (Audit No. 50801-3-KC) of the
         1998 Crop Loss Disaster Assistance Program (CLDAP). The primary
         objective of our review was to determine the propriety of CDP payments,
         with special emphasis on whether producers correctly reported their
         production, crop shares, and gross income. This report summarizes the
         results of our review of CDP payments in four counties in South Texas (see
         exhibit B).

           Our review of pepper, pecan, and cantaloupe crops in Gaines County
           disclosed that two producers underreported the production on their pepper
           crops and, thus, overstated the amount of loss suffered under the CDP. As
           a result, the producers received excessive payments of $10,860 on
           48,454 pounds of the pepper crop.

           In addition, we questioned the losses paid to producers on fall-planted
           watermelons in Hidalgo County since fall watermelon crops are not a
           normal planting practice for the area.       Losses on Hidalgo County
           watermelon crops reportedly planted in the fall amounted to a total of
           $23,235, which would not have been paid if the County Office Committee
           (COC) had made a complete and proper eligibility determination. For the
           same reason, we are questioning the validity of CDP payments made in
           Frio and Duval Counties, totaling $248,904, on reported losses on   fall-
           seeded watermelons.

                                    We recommend that the Farm Service Agency
  KEY RECOMMENDATIONS               (FSA) seek recovery of the excessive
                                    payments of $10,860 associated with the
                                    unreported production in Gaines County.
        Further, we recommend the Texas State FSA Office inform county officials
        in Hidalgo, Duval, and Frio Counties, and other surrounding counties in
        the South Texas area, of the findings pertaining to the fall watermelons


USDA/OIG-A/03601-38-Te                                                       Page i
          and instruct the counties to perform more comprehensive research before
          approving future disaster-related programs.

                                    FSA plans to inform the two producers in
    AGENCY RESPONSE                 Gaines      County      that    they    received
                                    overpayments and establish receivables on
                                    the agency’s accounting records for the
        amount of the overpayments. The FSA State Office believes that the 1999
        CDP payments on fall-seeded watermelon crops in several South Texas
        counties were proper. The FSA concluded that the proper eligibility
        determination was made to approve fall-seeded watermelons as a viable
        crop in South Texas and eligible for production loss benefits under the CDP
        program. The FSA conclusion is based on discussions with vegetable
        specialists in the area and the fact that crop insurance was available on
        fall-seeded watermelons in three South Texas counties.

                                       We agreed with the agency action to collect
        OIG POSITION                   the cited overpayments in Gaines County;
                                       however, additional information will be needed
                                       to document those actions before a
          management decision can be reached on Recommendation No. 1. We
          continue to believe that the CDP program benefits should not have been
          approved for fall-seeded watermelons in South Texas. However, after
          further consideration, we recognize that recommending the repayment of
          such payments could be too punitive on the producers. Payments to
          producers were based on determinations made by FSA officials using
          information considered sufficient at the time of approval. Therefore, we
          deleted the recommendation to collect the CDP payments and revised
          Recommendation No. 2. Recommendation No. 2, as revised, instructs
          FSA to inform the applicable counties of the findings in this report and to
          instruct the counties to perform more comprehensive research before
          approving future disaster-related programs.




USDA/OIG-A/03601-38-Te                                                        Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .......................................................................................i
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVE ...............................................................................................................1
   SCOPE .......................................................................................................................1
   METHODOLOGY .......................................................................................................2
FINDINGS AND RECOMMENDATIONS .......................................................................3
   CHAPTER 1 ...............................................................................................................3
   IMPROPER DISASTER BENEFITS WERE PAID ON INELIGIBLE CROP LOSSES3
   FINDING NO. 1 ..........................................................................................................3
   RECOMMENDATION NO. 1 ......................................................................................5
   FINDING NO. 2 ..........................................................................................................6
   RECOMMENDATION NO. 2 ......................................................................................9
GENERAL COMMENTS..............................................................................................11
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................12
   EXHIBIT B – COUNTIES AND CROPS REVIEWED ...............................................13
   EXHIBIT C – FSA’S RESPONSE TO DRAFT REPORT..........................................14
ABBREVIATIONS........................................................................................................16




USDA/OIG-A/03601-38-Te                                                                                                 Page iii
                          INTRODUCTION

                                        Program deficiencies noted during a
       BACKGROUND                       review (Audit No. 50801-3-KC) of the
                                        1998 CLDAP prompted us to perform
                                        this review of the CDP.

          Public Law 106-60, the Agriculture, Rural Development, Food and
          Drug Administration, and Related Agencies Appropriations Act, 2000,
          dated October 22, 1999, authorized the CDP and provided
          $1.2 billion to assist producers for losses suffered to 1999 crop year
          crops due to the adverse weather conditions.             The Omnibus
          Consolidated Appropriations Act, 2000, Energy Supplemental
          Appropriations, dated November 29, 1999, provided an additional
          $186 million to the CDP. The CDP compensates producers if their
          losses exceed 35 percent of historic yields. Producers with eligible
          losses to noninsurable crops will be compensated at 65 percent of
          the 5-year average of the National Agricultural Statistics Service
          price.

                                      The objective of the audit was to
         OBJECTIVE                    determine the propriety of CDP
                                      payments, with special emphasis on
                                      whether producers correctly reported
         their production, crop shares, and gross income.

                                        The audit work was performed at the
            SCOPE                       State office and two judgmentally
                                        selected county offices. The State of
                                        Texas was selected because the largest
          total ($196 million) of program eligibility (benefits before application of
          a national factor) existed in that State. Our selection of Gaines and
          Hidalgo County Offices located in Seminole and Edinburg, Texas,
          was based on the size of total CDP payment eligibility and crop
          diversity in each county. The two counties had the largest amount of
          payments under the CDP in the State. The large amounts payable
          on specialty crops, such as vegetables and nuts, was another factor
          in the selection of the two county offices. We did not perform testing
          of computer-based data to review sample cases.



USDA/OIG-A/03601-38-Te                                                       Page 1
          The audit fieldwork was conducted from May 19, 2000, through
          January 21, 2001, at the respective FSA county offices. We reviewed
          program payments on 1999 crop losses totaling $388,407 in Gaines
          County on red pepper, pecan, and cantaloupe crops and $521,319 in
          Hidalgo County on watermelon, cantaloupe, and cabbage crops, from
          the total program benefits totaling $6.6 million and $5.4 million paid in
          each of those respective counties (see exhibit B).

          This audit was conducted in accordance with Government auditing
          standards issued by the Comptroller General of the United States.
          Accordingly, the audit included such tests of program and accounting
          records as considered necessary to meet the audit objective.

                                     To accomplish the audit objective, we
       METHODOLOGY                   interviewed State and county office
                                     personnel, producers, county extension
                                     service personnel, and landowners.
         Farm records for 1999, as well as prior years, and CDP files were
         reviewed for the selected producers. We also obtained records from
         third parties.




USDA/OIG-A/03601-38-Te                                                     Page 2
         FINDINGS AND RECOMMENDATIONS


 CHAPTER 1       IMPROPER DISASTER BENEFITS WERE PAID ON
                 INELIGIBLE CROP LOSSES


          Our review of pepper, pecan, and cantaloupe crops in Gaines County
          disclosed that two producers underreported the production on their
          pepper crops during the 1999 crop year. As a result, the producers
          received excessive program payments of $10,860 on 48,454 pounds
          of the pepper crop.

          In addition, we questioned the losses paid to producers on
          fall-planted watermelons in Hidalgo County since fall watermelon
          crops are not a normal planting practice for the area. Losses on
          Hidalgo County watermelon crops reportedly planted in the fall
          amounted to a total of $23,235, which would not have been paid if
          the COC had made a complete and proper eligibility determination.
          For the same reason, we are questioning the validity of
          CDP payments made in Frio and Duval Counties, totaling $248,904,
          on reported losses on fall-seeded watermelons. We concluded that
          the planting of watermelon crops during a time of year when it is not
          normal to do so would be a managerial decision of each individual
          producer to accept such a high risk. Program regulations specifically
          provide that losses resulting from a poor managerial decision are not
          eligible for program benefits.

                                     Incorrect production quantities were
      FINDING NO. 1                  used to calculate the CDP benefits paid
                                     to producers 1 and 2. The incorrect
UNDERREPORTED PRODUCTION             quantity was used for the computation
        INCREASED                    because the producers did not report the
    PROGRAM BENEFITS                 additional information to the county
                                     office staff.  As a result, producers
                                     1 and 2 received a total of $10,860 in
        excess of the amount that otherwise would have been payable if the
        correct production quantity had been used.




USDA/OIG-A/03601-38-Te                                                 Page 3
               Regulations state that the actual production will be the total amount
               of harvested and appraised production on a unit. Also, producers are
               responsible for providing accurate and complete information and
               reporting the total amount of production for the crop.1

               Producer 1 filed Forms CCC-547, 1999 Crop Disaster Program
               Application, on February 17, 2000, certifying that 177.6 acres of
               peppers were damaged by high winds and hail. Documents were
               filed with the applications providing that the total actual production for
               the producers was 160,164 pounds on the entire 177.6 acres. Total
               payments of $40,817 were paid to producer 1 who had a 60-percent
               interest in the crop, and producer 2 (relative of producer 1) who
               owned the remaining 40-percent interest.

               We verified the reported total actual production of the producers’
               pepper crops with the buyer, who confirmed that the production
               actually amounted to 226,618 pounds. Producer 1 informed us that
               he was not aware that the county office staff had used an incorrect
               production amount. He understood that all purchases by the buyer
               had been reported to the county office. Our review of similar
               production records of other producers with the same type of crop sold
               to the buyer, and interviews with representatives of the buyers,
               indicates a summary worksheet detailing all purchases was provided
               to all producers selling produce to the buyer. This summary
               worksheet was not on file at the county office for either producer 1 or
               producer 2. The county office used other sales documents supporting
               the production amount to compute the disaster assistance payments
               to producers 1 and 2.

               Although the specific sales summary worksheet associated with the
               sales transactions involving the referenced buyer was used by the
               county office staff in virtually all other producers’ cases for pepper
               crops, the county office staff did not request such a sales summary
               sheet from either producer 1 or producer 2. Producer 1 informed us
               that he could not remember receiving the summary worksheet from
               the buyer. Producer 1 did confirm that the sales information we
               obtained from the buyer was correct.

               Computation of the disaster payments applicable to producers
               1 and 2 using the correct production amount shows that a total of
               $10,860 was overpaid ($6,516 to producer 1 and $4,344 to

1
 FSA Handbooks, 2-DAP, amendment 1, paragraphs 100 A and B, dated December 3, 1999, and 1-DAP,
amendment 9, paragraphs 1060 A and B, dated February 9, 1999.


USDA/OIG-A/03601-38-Te                                                                   Page 4
          producer 2).

                                     Obtain refunds of the overpayments
  RECOMMENDATION NO. 1               totaling $10,860 from producers 1 and 2
                                     for the incorrect reporting of production
                                     quantities by the two producers.

           FSA Response

           The agency is in agreement that two producers received erroneous
           program benefits in Gaines County as a result of underreported
           production amounts. The response shows that the county office will
           seek refunds of the overpayments by notifying the producers of the
           overpayment amount and establishing a receivable in the agency
           records.

           OIG Position

           We will need documentation that collections were made or
           receivables have been established for the overpayments cited in
           Gaines County.




USDA/OIG-A/03601-38-Te                                                Page 5
                                          Disaster losses to fall 1999 watermelon
           FINDING NO. 2                  crops may not have been eligible for
                                          CDP payments.        The     questionable
      QUESTIONABLE DISASTER               payments on watermelons occurred
             PAYMENTS                     because the COC did not make a proper
    ON FALL-SEEDED WATERMELON             eligibility determination for fall-seeded
               LOSSES                     watermelon crops. We questioned the
                                          propriety of CDP program payments on
                                          fall-seeded watermelon losses totaling
             $272,139 in Hidalgo, Frio, and Duval Counties (see exhibit B).

                   Program regulations state that eligible losses cannot be the result of
                   poor management decisions or poor farming practices. 2

                   Based on discussions with several vegetable specialists,3
                   watermelon producers and buyers in Hidalgo County and other South
                   Texas counties, we confirmed that watermelons and other similar
                   vine-growing crops (such as cantaloupe and honeydew melons) are
                   rarely grown in the South Texas area in the fall. These individuals
                   also informed us that the practice of planting watermelons or other
                   similar crops in the fall would be a managerial decision by the grower
                   because the chances for a successful crop would be nominal (about
                   5 to 10 percent). The specialists all described the fall seeding of
                   watermelons as a poor farming practice due to the extreme risk of
                   success for such a practice.

                   The vegetable specialists listed a number of factors that would
                   classify the planting of fall watermelons in the South Texas area as a
                   poor farming practice. These factors included:

                         •     problems with pests which cannot be controlled economically
                               or in many cases cannot be controlled at all;

                         •     depressed market conditions and prices (crop would not be
                               economical to grow);

                         •     plant disease inherent with the typical fall weather, adverse
                               weather conditions during the growing period;



2
  FSA Handbooks, 2-DAP amendment 1, paragraph 4 B, dated December 3, 1999, and 1-DAP, amendment 11,
paragraph 1020 C, dated March 8, 1999.
3
  Agricultural Economics Specialist, Plant Pathologist and Horticulturist from the Texas Agricultural Extension Service.


USDA/OIG-A/03601-38-Te                                                                                             Page 6
              •   high probability of cold or freezing temperatures prior to
                  harvest; and

              •   irrigation at this time of year builds an ideal environment to
                  promote pests and disease.

          Based on these factors, vegetable specialists concluded planting fall
          watermelons in South Texas was extremely risky and a poor farming
          practice.

          The Hidalgo COC made the determination that fall-seeded
          watermelons totaling $23,235 would be eligible crop losses for the
          disaster program. The eligibility determination seemed to be based,
          in part, on the fact that the State Committee (STC) had established a
          yield for this crop for disaster program purposes. A former employee
          of the Hidalgo County FSA Office informed us that the COC did not
          consider whether fall-seeded watermelon crops were viable crops in
          the area nor did they discuss other factors when establishing the
          eligibility of such a crop for disaster program purposes. In essence,
          they made the assumption that such a crop (fall-seeded
          watermelons) would be eligible because a yield was established by
          the STC. However, it should be noted that the STC made its yield
          determination based, in part, on the recommendation by the
          Hidalgo COC of the crop’s eligibility, the validity of which we are
          questioning based on our findings herein. It seems apparent that an
          erroneous determination by the Hidalgo COC led to an erroneous
          determination by the STC, which the Hidalgo COC used to support its
          actions.

          Our review of documentation at the State office in support of the STC
          determination of a disaster program yield for fall-seeded watermelons
          in South Texas (including Hidalgo County) disclosed that the
          determination was based on incorrect and incomplete information.
          Specifically, the determination was based, at least in part, on what
          was interpreted and documented as the recommendations of the
          COC’s in the two South Texas counties of Jim Wells and Duval. The
          documentation indicated that the COC of two FSA county offices,
          other than Hidalgo County, had recommended that the fall-seeded
          watermelon yield be                  the same as the spring-seeded
          watermelon crop with a                    10- to 20-percent reduction.
          Further, the documentation indicated the district director discussed
          the establishment of a fall-seeded watermelon yield with an
          Extension Service vegetable specialist as well as the personnel at
          the two county offices. However, our discussions with the vegetable


USDA/OIG-A/03601-38-Te                                                  Page 7
          specialist confirmed that he did not support the practice of fall-
          seeding watermelons as a good farming practice. He classified it as
          a poor farming practice with a high risk factor and did not recommend
          planting fall-seeded watermelons in the South Texas area. Another
          vegetable specialist informed us that his conversation with a State
          office program specialist was very explicit with the same
          recommendation that fall-seeded watermelons was a poor farming
          practice.

          Likewise, Jim Wells County FSA Office personnel informed us that
          their COC’s recommendation for a fall-seeded watermelon yield did
          not include a reduction from the spring-seeded watermelon yield.
          That COC had recommended the watermelon yield be set the same
          regardless of the time of year in which the watermelons would be
          planted. However, the COC in this county did recommend a yield
          reduction for fall-seeded watermelons double-cropped behind
          another crop in the same crop year. Personnel at this county office
          speculated that the State office staff could have misinterpreted the
          letter outlining the recommendations and mistakenly applied the yield
          reduction to all fall-seeded watermelons.

          Jim Wells and Duval County FSA Office personnel did not have
          documentation supporting the yield recommendations of the
          respective county committees. Personnel at those county offices
          stated that it was merely based on the personal knowledge and
          opinions of the county committee members with the concurrence of
          the county office staff. Additionally, they acknowledged that relatively
          small acreage amounts of fall-seeded watermelons were historically
          planted in their respective counties in comparison with spring-seeded
          watermelons.

          Vegetable specialists further confirmed that fall-seeded watermelons
          are historically very small total acreage in the South Texas area. No
          explanation was given by the personnel at either of these two county
          offices to account for the vast acreage differences historically planted
          in the two different time periods of the year (fall versus spring).
          Although logical reasoning could indicate the watermelon acreage
          planted in the fall is directly proportional to the risk factors dictating
          the viability of growing such a crop at that time of year versus in the
          spring, neither the STC nor the Hidalgo COC reviewed this subject
          extensively.

          We concluded that it is questionable whether fall-seeded
          watermelons can be grown in South Texas with reasonable


USDA/OIG-A/03601-38-Te                                                      Page 8
            expectation of a successful harvest. The small historical acreage
            plantings of watermelons in the fall versus spring plantings in this
            area provide further evidence in support of such a conclusion.

           A relatively small number and amount of CDP payments were paid
           on 1999 watermelon losses in Jim Wells County. Thus, we did not
           obtain further payment data for that county office and did not include
           any questioned amounts from that county in this report. Information
           about Jim Wells County is presented above because it is referenced
           in the STC determination as one of the county offices which
           recommended a yield be established for fall-seeded watermelons.

           Review of CDP payment data indicates that a large number of
           CDP payments were made on watermelon losses in two other South
           Texas counties (Duval and Frio). Payment data obtained from those
           two county offices show that CDP benefits totaling $248,904 were
           paid on reported disaster losses of fall-seeded watermelon crops.
           We did not review CDP records in either Frio or Duval Counties.
           However, we are questioning the propriety of payments on losses to
           fall-seeded watermelon crops in those counties for the same reason
           such losses are being questioned in Hidalgo County. As explained
           above, we question whether the planting of fall-seeded watermelons
           in South Texas (including the three counties of Hidalgo, Frio, and
           Duval) is a viable farming practice. Accordingly, we believe losses
           on such crops are directly associated with the management decision
           to take the extreme risk of loss related to such a practice.

                                     Instruct county office officials in Hidalgo,
  RECOMMENDATION NO. 2               Duval, and Frio Counties, and other
                                     surrounding counties in the South Texas
                                     area, of these findings and instruct the
       counties to perform more comprehensive research before approving
       future disaster-related programs.

           FSA Response

           The agency response states that the FSA State Office conducted a
           review of 1999 CDP payments for losses on fall-seeded watermelons
           in several South Texas counties. The State office review found that
           fall-seeded watermelons are historically grown “on a limited basis” in
           South Texas. The agency’s review further confirmed that substantial
           increases in fall-seeded watermelon acreages occurred in 1999 for
           the three counties of Frio, Duval, and Hidalgo. The agency
           acknowledges that the increased planted acreage of fall-seeded


USDA/OIG-A/03601-38-Te                                                   Page 9
          watermelons in the three counties was abusive in nature but that the
          intent of these producers was “abuse of the insurance program.”
          The agency believes that planting of fall-seeded watermelons in
          South Texas results in a viable crop in normal circumstances.
          Furthermore, the agency has concluded the fact that crop insurance
          was available on fall-seeded watermelons for some producers in Frio,
          Duval, and Hidalgo Counties supports the agency’s conclusion that
          fall-seeded watermelons were eligible for disaster program benefits.
          The agency response states the program regulations provide that
          “the county office was to use the eligibility determination made by
          Risk Management (RMA) if one had been made.” The agency states
          that such an eligibility determination was made by RMA “in all cases”
          in these three counties of South Texas (see exhibit C).

          OIG Position

          Based on the facts presented in this report, we continue to believe
          that disaster benefits should not have been paid in the South Texas
          counties on fall-seeded watermelons. We maintain this position
          because the vegetable specialists in the area told OIG that
          fall-seeded watermelons were not a viable crop and would be a poor
          management decision for producers to perform such a practice. As
          stated in the General Comments section of this report, crop
          insurance claims for fall-seeded watermelons are also being
          reviewed in South Texas. From this review, we will also question
          RMA’s approval of fall-seeded watermelons in South Texas for the
          1999 pilot watermelon insurance program. Notwithstanding whether
          RMA determined fall-seeded watermelons eligible for the pilot
          watermelon insurance program, FSA still had the responsibility to
          approve the crop for the CDP program.

          However, after further consideration, we recognize that
          recommending the repayment of such payments could be too
          punitive on the producers. Payments to producers were based on
          determinations made by FSA officials using information considered
          sufficient at the time of approval. Therefore, we deleted the
          recommendation to collect the CDP payments and revised
          Recommendation No. 2. To reach management decision on the
          revised Recommendation No. 2, we need documentation to show
          that the applicable counties have been informed of the findings in this
          report and instructed to perform more comprehensive research for
          future disaster-related programs.




USDA/OIG-A/03601-38-Te                                                  Page 10
                    GENERAL COMMENTS


     Crop insurance claims for fall-seeded watermelon losses in
     Hidalgo County are being reviewed under Audit No. 05601-7-Te for
     a producer that received about $7 million in crop insurance
     proceeds. A portion of these insurance proceeds was paid on
     reported crop losses on land leased from some of the
     producers/landowners discussed in this report. The reported
     CDP losses were paid to landowners on relatively small acreage
     which was not insured, but which was a part of a large parcel of land
     on which crop insurance was obtained by the producer whose crop
     insurance claims are being reviewed under Audit No. 05601-7-Te.

     At the completion of our fieldwork, farming and accounting records
     requested during the crop insurance audit had not been provided to
     us. The content of those requested records could provide additional
     reasons for questioning the CDP payments paid to the referenced
     producers/landowners.       Additionally, crop insurance claims for
     reported losses on fall-seeded watermelons in Frio and Duval
     Counties are being reviewed under Audit No. 05601-7-Te for
     producers who have not been identified as being involved in the
     operations of the above-referenced producers. However, the review
     is still in process and additional records are needed to complete the
     review. Therefore, if additional information obtained during    Audit
     No. 05601-7-Te identifies further problems relating to the
     CDP review, we will provide FSA a written report on those issues.




USDA/OIG-A/03601-38-Te                                                  Page 11
EXHIBIT A – SUMMARY OF MONETARY RESULTS


Finding     Recommendation
Number           Number                     Description                Amount            Category

                                       Underreported                                     Questioned
   1                   1               Production Increased               $ 10,860         Costs –
                                       Program Benefits                          A/       Recovery
                                                                                        Recommended



                                       Questionable
   2                   2               Payments On                                       Questioned
                                       Fall-Seeded                          272,139      Costs – No
                                       Watermelon Losses                         B/       Recovery



TOTAL                                                                      $282,999



       A/ - The program payments of $10,860 ($6,516 + $4,344) include overpayments to
            producers 1 and 2, respectively.

       B/ - The program payments of $272,139 ($23,235 + $170,632 + $60,272) include
            CDP payments in Hidalgo, Frio, and Duval Counties, respectively.




USDA/OIG-A/03601-38-Te                                                                   Page 12
EXHIBIT B – COUNTIES AND CROPS REVIEWED


                                              NUMBER OF
                                             APPLICATIONS               CDP PAYMENTS
   COUNTY              CROP                    REVIEWED                   REVIEWED
  GAINES           PEPPER                         10                       $206,460
                   PECAN                          10                         91,538
                   CANTALOUPE                       2                        90,409
  SUBTOTAL                                        22                       $388,407
  HIDALGO          CABBAGE                        10                       $273,603
                   CANTALOUPE                       5                       229,368
                   WATERMELON                     11                         18,348 A/
  SUBTOTAL                                        26                       $521,319
  DUVAL            WATERMELON                      -                           -    B/
  FRIO             WATERMELON                      -                           -    B/
  SUBTOTAL                                         -                           -    B/
  TOTAL                                           48                      $909,726



     A/ - Although we reviewed CDP payments totaling $18,348, we questioned total
          program payments of $23,235.

     B/ - CDP applications in Duval and Frio Counties were not reviewed. However,
          we questioned the propriety of program payments totaling $248,904
          ($170,632 + $60,272). Total program payments questioned for fall
          watermelons were $272,139 ($23,235 + $170,632 + $60,272).




USDA/OIG-A/03601-38-Te                                                              Page 13
EXHIBIT C – FSA’S RESPONSE TO DRAFT REPORT




USDA/OIG-A/03601-38-Te                       Page 14
USDA/OIG-A/03601-38-Te   Page 15
                         ABBREVIATIONS



CDP        Crop Disaster Program

CLDAP      Crop Loss Disaster Assistance Program

COC        County Office Committee

FSA        Farm Service Agency

STC        State Committee




USDA/OIG-A/03601-38-Te                             Page 16
